CENTER FOR BIOLOGICAL DIVERSITY
1411 K Street NW, Suite 1300
Washington, DC 20005

February 14, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543

Re:

Center for Biological Diversity et al. v. Department of Homeland Security et al.,
No. 19-975

Dear Mr. Harris,
I am counsel of record for Petitioners in this case.
Under Rule 37.3(a), Petitioners consent to the filing of amicus briefs in support of either
or neither party, if filed within the time allowed by the Court’s rules.

Sincerely,

Anchun Jean Su
Center for Biological Diversity
1411 K Street NW, Suite 1300
Washington, DC 20005
jsu@biologicaldiversity.org
202 849-8399

